No. 19-454
IN THE SUPREME COURT OF THE UNITED STATES
________________
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL, PETITIONERS
v.
COMMONWEALTH OF PENNSYLVANIA, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE PETITIONERS, via e-mail and first-class mail, postage
prepaid, this 26th day of April 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 6000 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
April 26, 2020.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
April 26, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

HELEN M. ALVARE
ANTONIN SCALIA LAW SCHOOL
3301 FAIRFAX DRIVE
ARLINGTON, VA 22201

STEVEN ART
LOEVY & LOEVY
311 NORTH ABERDEEN ST
CHICAGO, , IL 60607

JOSH BLACKMAN
1303 SAN JACINTO STREET
HOUSTON, TX 77002

JEFFREY BLUMENFELD
LOWENSTEIN SANDLER, LLP
2200 PENNSYLVANIA AVENUE, NE
WASHINGTON , DC 20037

LEAH R. BRUNO
DENTONS US LLP
233 SOUTH WACKER DRIVE
SUITE 5900
CHICAGO, IL 60606

DONALD BURKE
ROBBINS RUSSELL ENGLERT ORSECK
UNTEREINER & SAUBER LLP
2000 K STREET, NW
4TH FLOOR
WASHINGTON, DC 20006

ANTHONY T. CASO
CHAPMAN UNIVERSITY
FOWLER SCHOOL OF LAW
ONE UNIVERSITY DRIVE
ORANGE, CA 92866

MATTHEW JAMES CLARK
FOUNDATION FOR MORAL LAW, INC.
1 DEXTER AVENUE
MONTGOMERY, AL 36104

MILES E. COLEMAN
NELSON MULLINS RILEY & SCARBOROUGH, LLP
2 W. WASHINGTON ST.
4TH FLOOR
GREENVILLE, SC 29601

KEVIN COSTELLO
CENTER FOR HEALTH LAW ANDPOLICY
INNOVATION OF HARVARD LAW SCHOOL
1585 MASSACHUSETTS AVENUE
CAMBRIDGE, MA 02138

ELIZABETH N. DEWAR
MA STATE SOLICITOR
ONE ASHBURTON PLACE
BOSTON, MA 02108

DWIGHT G. DUNCAN
COLBE MAZZARELLA
333 FAUNCE CORNER ROAD
NORTH DARTMOUTH, MA 02747

CHRISTOPHER M. EGLESON
SIDLEY AUSTIN LLP
555 WEST FIFTH STREET
LOS ANGELES , CA 90013

BLAINE H. EVANSON
GIBSON DUNN & CRUTCHER LLP
3161 MICHELSON DRIVE
IRVINE, CA 92612-4412

MICHAEL F. FISCHER
CHIEF DEPUTY ATTORNEY GENERAL
PENNSYLVANIA OFFICE OF ATTORNEY
GENERAL
1600 ARCH STREET
SUITE 300
PHILADELPHIA , PA 19103

BRIANNE J. GOROD
CONSTITUTIONAL ACCOUNTABILITY CENTER
1200 18TH ST., NW
SUITE 501
WASHINGTON, DC 20036

M. DUNCAN GRANT
PEPPER HAMILTON LLP
3000 TWO LOGAN SQUARE
PHILADELPHIA, PA 19103

CLAUDIA HAMMERMAN
PAUL, WEISS, RIFKIND, WHARTON & GARRISON
LLP
1285 AVENUE OF THE AMERICAS
NEW YORK, NY 10019

DENISE M. HARLE
ALLIANCE DEFENDING FREEDOM
1000 HURRICANE SHOALS RD., NE
SUITE D-1100
LAWRENCEVILLE, GA 30043

KYLE D. HAWKINS
SOLICITOR GENERAL
P.O. BOX 12548 (MC 059)
AUSTIN, TX 78711-2548

THOMAS W. HAZLETT
BALLARD SPAHR LLP
1735 MARKET STREET
51ST FLOOR
PHILADELPHIA , PA 19103

B. JESSIE HILL
CASE WESTERN RESERVE UNIVERSITY SCHOOL
OF LAW
11075 EAST BOULEVARD
CLEVELAND, OH 44106

BEATRICE JESSIE HILL
CASE WESTERN RESERVE UNIVERSITY SCHOOL
OF LAW
11075 EAST BOUULEVARD
CLEVELAND, OH 44106

JAMES L. HIRSEN
505 S. VILLA REAL DRIVE,
SUITE 208
ANAHEIM HILLS , CA 92807

ELIZABETH HOPKINS
KANTOR & KANTOR, LLP
19839 NORDHOFF STREET
NORTHRIDGE, CA 91324

NANDAN M. JOSHI
PUBLIC CITIZEN LITIGATION GROUP
1600 20TH STREET NW
WASHINGTON, DC 20009

RICHARD B. KATSKE
AMERICAN UNITED FOR SEPRATED CHURCH
AND STATE
1310 L ST. NW, STE. 200
WASHINGTON , DC 20005

RICHARD BRIAN KATSKEE
AMERICANS UNITED FOR SEPARATION OF
CHURCH AND STATE
1310 L STREET, NW
SUITE 200
WASHINGTON, DC 20005

MICHAEL B. KIMBERLY
MCDERMOTT WILL & EMERY LLP
500 NORTH CAPITOL STREET, NW
WASHINGTON, DC 20001

ERIC N. KNIFFIN
LEWIS ROCA ROTHGERBER CHRISTIE LLP
90 S. CASCADE AVE.
SUITE 1100
COLORADO SPRINGS , CO 80903

MARTIN S. LEDERMAN
GEORGETOWN UNIVERSITY
LAW CENTER
600 NEW JERSEY AVE., NW
WASHINGTON, DC 20001

FRANCIS J. MANION
AMERICAN CENTER FOR LAW & JUSTICE
PO BOX 60
NEW HOPE, KY 40004

JOSHUA MATZ
KAPLAN HECKER & FINK LLP
350 FIFTH AVENUE
SUITE 7110
NEW YORK , NY 10118

THOMAS R. MCCARTHY
ANTONIN SCALIA LAW SCHOOL SUPREME
COURT CLINIC CONSOVOY MCCARTH PLLC
1600 WILSON BOULEVARD
SUITE 700
ARLINGTON, VA 22209

JONATHAN B. MILLER
PUBLIC RIGHTS PROJECT
1721 BROADWAY
#201
OAKLAND, CA 94612

GLENN J. MORAMARCO
ASSISTANT ATTORNEY GENERAL
NEW JERSEY ATTORNEY GENERAL'S OFFICE
RICHARD J. HUGHES COMPLEX
25 MARKET STREET
TRENTON, NJ 08625

DAVID A. O'NEIL
DEBEVOISE & PLIMPTON LLP
801 PENNSYLVANIA AVENUE N.W.
WASHINGTON, DC 20004

JENNIFER C. PIZER
LAMBDA LEGAL DEFENSE AND
120 WALL ST., 19TH FLOOR
NEW YORK, NY 10005

WESLEY R. POWELL
WILLKIE FARR & GALLAGHER LLP
787 SEVETH AVENUE
NEW YORK , NY 10019

AJMEL QUERESHI
HOWARD UNIVERSITY SCHOOL OF LAW CIVIL
RIGHTS CLINIC
2900 VAN NESS STREET, NW
WASHINGTON, DC 20008

MARK J. RIENZI
THE BECKET FUND FOR RELIGIOUS LIBERTY
1200 NEW HAMPSHIRE AVENUE, NW
SUITE 700
WASHINGTON , DC 20036

RICHARD A. SAMP
NEW CIVIL LIBERTIES ALLIANCE
1225 19TH STREET NW
SUITE 450
WASHINGTON, DC 20036

BRUCE H. SCHNEIDER
STROOCK & STROOCK & LAVAN LLP
180 MAIDEN LANE
NEW YORK , NY 10038

JAY ALAN SEKULOW
AMERICAN CENTER FOR LAW AND JUSTICE
201 MARYLAND AVE., NE
WASHINGTON, DC 20002

JAMES R. SIGEL
MORRISON & FOERSTER LLP
425 MARKET ST.
SAN FRANCISCO, CA 94015

LISA E. SORONEN
STATE AND LOCAL LEGAL CENTER
444 NORTH CAPITOL STREET, NW
SUITE 515
WASHINGTON, DC 20001

GEOFFREY R. SURTEES
AMERICAN CENTER FOR LAW & JUSTICE
6375 NEW HOPE ROAD
NEW HOPE, KY 40052

EDWARD TABASH
11500 WEST OLYMPIC BLVD.
SUITE 400
LOS ANGELES , CA 90064

EDWARD L. WHITE
AMERICAN CENTER FOR LAW & JUSTICE
3001 PLYMOUTH ROAD
SUITE 203
ANN ARBOR , MI 48105

